             AUDIT OF EXPENSES FOR MEALS AND REFRESHMENTS
             INCURRED BY THE LATINO COALITION FOUNDATION
            ON SBA 7(J) COOPERATIVE AGREEMENT SBAHQ-02-J-0021

                            AUDIT REPORT NUMBER 4-31

                                     JULY 19, 2004




This report may contain proprietary information subject to the provisions of 18 USC 1905
and must not be released to the public or another agency without permission of the Office
of Inspector General.
                          U.S. Small Business Administration
                              Office of Inspector General
                                Washington, DC 20416


                                                                 AUDIT REPORT
                                                             Issue Date: July 19, 2004
                                                             Number: 4-31


TO:            Darryl K. Hairston
               Assistant Administrator for Administration


FROM:          Robert G. Seabrooks [FOIA Ex. 6]
               Assistant Inspector General for Auditing

SUBJECT:       Audit of Expenses for Meals and Refreshments Incurred by the Latino Coalition
               Foundation on SBA 7(j) Cooperative Agreement SBAHQ-02-J-0021

       The Office of Inspector General (OIG) audited certain expenditures incurred by the
Latino Coalition Foundation, a SBA 7(j) cooperative agreement recipient, to determine if any
Federal rules or regulations were violated. We found $1,001.80 in unallowable costs spent on
alcoholic beverage service at a welcome reception. We also found that improvements are needed
when awarding and administering 7(j) cooperative agreements.


                                       BACKGROUND

       In FY 2002, SBA awarded a $250,000 cooperative agreement to the Latino Coalition
Foundation (SBAHQ-02-J-0021), which included a three-day training conference in Washington,
D.C. in February 2003. The Latino Coalition Foundation was reimbursed for $141,382.49 in
conference related expenditures determined by SBA to be allowable for the event, which offered
management and technical assistance to minority small business owners. Of that amount,
$37,636.93 was spent on meals and refreshments for a welcome reception, two working
breakfasts, two working luncheons, and a reception and policy dinner.

        The 7(j) program office is responsible for entering into cooperative agreements with
service providers for specialized assistance to eligible small businesses. The Office of
Procurement and Grants Management in the Office of Administration is responsible for
enforcing the terms and conditions of the cooperative agreement.
                        OBJECTIVE, SCOPE AND METHODOLOGY

       The OIG conducted an audit of limited scope to determine if certain expenditures for
meals and refreshments violated any Federal rules or regulations. We interviewed SBA officials,
reviewed the relevant SOP and OMB Circular, examined SBA documents related to the
cooperative agreement award, as well as materials provided by the hotel that hosted the
conference and the caterer for one of the events where meals and refreshments were served.

         Our audit did not cover cooperative agreement administration activities, except those
activities related to meals and refreshments expenses, or the Latino Coalition Foundation’s
performance with other terms and conditions of the cooperative agreement. On September 30,
2002, we issued Audit Report No. 2-33, Audit of 7(j) Management and Technical Assistance
Program Cooperative Agreement Administrative Activities, which identified several weaknesses
in 7(j) cooperative agreement administration. SBA officials may not have taken into account the
recommendations from our prior report when awarding this cooperative agreement to the Latino
Coalition Foundation.

      We performed fieldwork from March to May, 2004 in Washington, D.C. The audit was
conducted in accordance with Government Auditing Standards.


                                        AUDIT RESULTS

Finding 1: Unallowable Costs

        Based on documents provided to the OIG by a hotel banquet manager, the Latino
Coalition Foundation inappropriately spent $1,001.80 in cooperative agreement funds on
alcoholic beverage service for a welcome reception held February 24, 2003 at the Capital Hilton.
The costs incurred were for a wine and beer bar, plus related bartender, service, and tax charges.
According to OMB Circular A-122, Cost Principals for Non-Profit Organizations, costs of
alcoholic beverages are unallowable. The hotel banquet event orders, which give a detailed
record of the quantities and costs of food and beverage items served, were not provided to SBA
officials when payment was requested by the Latino Coalition Foundation. Instead, those
officials relied on various hotel receipts, which did not provide sufficient details of costs for what
was actually procured.


                                     RECOMMENDATION

1A.    We recommend that the Assistant Administrator for Administration obtain
       reimbursement from the Latino Coalition Foundation for $1,001.80 in unallowable costs
       spent on alcoholic beverage service for a welcome reception held February 24, 2003 at
       the Capital Hilton.




                                                  2
Finding 2: Improvements Needed When Awarding and Administering 7(j) Cooperative
          Agreements

        While reviewing the meals and refreshments expenses, we determined that SBA did not
always adequately determine whether expenses were allowable and reasonable. As a result, the
expenses SBA paid as described in Finding 1 were not allowable and other expenses do not
appear to be reasonable. The cooperative agreement proposal did not contain a breakdown of the
$40,000 budgeted for “meals and refreshments.” A catered “French Service Dinner” held as one
of the conference functions on February 25, 2003, highlights the problem of awarding a
cooperative agreement with insufficient detail on proposed costs for meals and refreshments.

        SBA reimbursed the Latino Coalition Foundation $14,852 toward the dinner, or
approximately $100 per person based on a billing estimate anticipating 150 guests. It could be
argued that a $100 per person dinner does not meet OMB Circular A-122’s definition of
reasonableness and, therefore, should not have been approved. Although a dinner function was
shown on the tentative conference agenda included with the cooperative agreement proposal,
there was no supporting documentation included with the proposed budget showing such detail
as a proposed cost per person. Similarly, there was no supporting documentation included with
the proposed budget for the welcome reception noted in Finding 1. If detailed documentation
had been provided, the amount budgeted for the reception might have been reduced or eliminated
entirely to better meet concerns about reasonableness, since the function was held the night
before conference training began.

        We also found that documentation was lacking to support and approve the reimbursement
request for the meals and refreshments expenses, which was submitted after the conference was
held. For example, as noted in Finding 1, hotel banquet event orders, which give a detailed
record of the quantities and costs of food and beverage items served, were not provided to SBA
officials when payment was requested by the Latino Coalition Foundation. Instead, those
officials relied on various hotel receipts, which did not provide sufficient details of costs for what
was actually procured. Auditors reviewed the hotel banquet event orders, which clearly showed
the procurement of alcoholic beverages, an unallowable cost according to Federal regulations. If
more detailed support documentation for the reimbursement request had been provided, such as
the banquet event orders, it is likely the mistaken reimbursement for alcoholic beverage service
could have been avoided.

         OMB Circular A-122 states that costs must be allowable. One of the tests of allowability
is that costs be “reasonable,” which is defined in that Circular as costs that do not “…exceed that
which would be incurred by a prudent person under the circumstances prevailing at the time the
decision was made to incur the costs.” The guidelines contained in OMB Circular A-122 do not
contain the necessary detail so that SBA employees know what budget detail and documentation
are necessary to make that determination. Neither does SOP 00 11 1, “Small Purchases,
Contracts, Grants, and Cooperative Agreements” provide additional guidance to SBA employees
on this issue.

      The Grant Management Officer’s Technical Representative (GOTR) for this cooperative
agreement said that she had not received any training in reviewing cooperative agreement
proposals, expense reports, or the other responsibilities of a GOTR, but had simply been pulled
from her regular responsibilities in the Office of Business Development to work on various 7(j)
cooperative agreements. Furthermore, when she sought guidance from others within SBA, such
as on the allowability of costs for meals and refreshments, she said the guidance was not
provided. The Assistant Administrator for Administration stated that he is planning to provide
training for GOTRs.


                                   RECOMMENDATION

2A.    We recommend that the Assistant Administrator for Administration, in conjunction with
       the Associate Deputy Administrator for Government Contracting and Business
       Development, develop and provide grant and cooperative agreement training to all SBA
       employees involved in the 7(j) grant or cooperative agreement process. The training
       should include written guidelines as to what budget detail and documentation are
       necessary to approve proposals and properly process reimbursement requests.


SBA MANAGEMENT’S COMMENTS

      The Assistant Administrator for Administration agreed with the report’s
recommendations, and had no additional comments.


                                       * * * * *

       The recommendations in this audit report are based on the conclusions of the Auditing
Division. The recommendations are subject to review, management decision and action by
your office in accordance with existing Agency procedures for audit follow-up and
resolution.

        Please provide us your management decision for each recommendation within 30 days.
Your management decisions should be recorded on the attached SBA Forms 1824,
“Recommendation Action Sheet,” and show either your proposed corrective action and target
date for completion, or explanation of your disagreement with our recommendations.

       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-[FOIA Ex. 2].


Attachment
